Docket No.

20- )6Y\

The Supreme Court of the United States

Supreme Court, U.S.
FILED

APR 2 6 2021
OFFICE OF THE CLERK

John Barth,
Petitioner
v.

Adam Buckley, Jason Panos,
City of Peabody, Marianne Bowler,
Respondents and Defendants
On Petition for Writ of Certiorari
to the First Circuit Court of Appeals
PETITION FOR WRIT OF CERTIORARI

John S. Barth
P.O. Box 88, Springvale, ME 04083
(207) 608-1741

Received
MAY 1 2 2021

ssmmis®.
0

Questions Presented for Review
1. Are the 120 paragraphs of detailed factual statements in the Complaint
and Appendix, together with numerous public record exhibits of
defendant perjuries and abuses of office, sufficiently detailed to rise above
mere “speculation,” the perjury of the lower court?
The questions of fact are readily decided:
a. Did defendants Buckley and Panos commit perjury in the original case?
b. Did magistrate Bowler commit perjury and abuse of public office in the
original case?
c. Did these perjuries and abuses of office have the effect of violation of
plaintiff rights under Amendments V and XIV to Due Process of Law, to
Equal Protection of Law, and against the taking of property without
compensation?
The Plaintiff demands full compensation and removal of the corrupt lower
court judges.
2. Are matters of perjury at trial and abuse of trial process res judicata,
when no such claims were even possible in the prior case, and only one of
four defendants is common to the cases?
3. Will this Court grant absolute immunity to a magistrate proven on
public record to have committed extreme perjury and abuse of judicial
office? Shall the US accept its constitutional responsibility for her actions?
Will this Court order the Court of Federal Claims to accept tort claim
jurisdiction as provided by the Tucker Act?

vra'lan s
,*

i

PARTIES
1. Plaintiff John Barth is the owner of land at 4 Lynn Street, Peabody, Essex
County, Massachusetts (Peabody Assessor Map 102 Lot 255 shown in Appendix B
and Exhibits 6-8 and 42-49), hereinafter "property of Plaintiff' or "subject property."
Although appearing pro se, the Petitioner is very able to argue the issues.
The Plaintiff is also prosecuting theft of $120 million in conservation funds by
Florida politicians and a state judge who turned out to be of one party. That case
has been blocked by Republican judges for two years. This is the motive of Bowler
and the First Circuit in using false pretexts to injure and deny rights of the
Plaintiff.

2. Defendant City of Peabody ("city”) is a municipality of Massachusetts which
unlawfully denied permission to continue the established residential use of the
property by rebuilding a home there, using zoning ordinances under state law that
exempts the rebuilding of homes.

3. Defendant Adam Buckley is a wholly dishonest city lawyer who made extreme
perjuries in the original case.

4. Defendant Jason Panos is an extremely dishonest city zoning board chair
responsible for unlawful application of the city zoning ordinance, the sole ZBA vote
against the rebuilding of the home, who made extreme perjuries as witness for
defendant city in the original case.

5. Defendant Marianne Bowler is a dishonest magistrate who made perjuries and
abuses of office to obstruct justice throughout the original case, for benefit to her
political party, knowing that the plaintiff is prosecuting its racketeering crimes in
another case.

u

Table of Contents
Table of Authorities......................................................
Orders Entered..............................................................
Jurisdiction................................................. ..................
Statement of the Case with Pertinent Facts..............
Reasons for Certiorari for Question 1 (allegation).....
Sufficiency of Allegation............................................
Standard of Judgment..................................... .......
Application of the Standard to the Case..............
Perjury by Buckley and Panos.... .............................
Perjury in Pretrial Process................. ...................
Perjury at Trial.................................... ...................
Perjury and Abuse of Office by Bowler........ ............
Perjury and Abuse in Pretrial Process..................
Perjury and Abuse in Conduct of Trial.............. .
Perjury in Instructions to the Jury.......................
Federal Laws Violated by Bowler..........................
Violations of Due Process and Equal Protection.....
Violations of Equal Protection of Law...................
Violations of Due Process of Law...........................
Taking of Private Property ........................................
Conflict With Rulings of this Supreme Court......
State Law Is Consistent With Federal Law.... .....
The Law Applied to the Case........... .....................
False Instructions to Jury on the Takings Clause
Reasons for Certiorari for Question 2 (res judicata)...
Reasons for Certiorari for Question 3 (immunity).....
Standard of Judgment of Immunity.............. ..........
Application of the Standard to the Case.................
Should this Court review de novo to avoid bias?.......
Conclusion on Certiorari.................................... ..........
Appendix A: Denial of Review by First Circuit..........
Appendix B: Dismissal Order of District Court.......
Appendix C: Proposed Rebuilding of the Home.........

m

IV

v
vi

1
7
8
8
8
9
9
9
12
12
12
13
22
23
23
.23
24
24
26
26
27
28
29
30
33
34
34
38
40
44

Table of Authorities
Definition of Constructive Taking of Property
1. Gomillion v. Lishtfoot 364 U.S. 339 (1960)
2. Inmob. Bor. Inc v. Sant. 195 FSupp 203 (PR ’69)
3. James G. Cavon vs. City of Chicopee, 360 Mass. 606, 609 (1971),
page 23, 39
4. Lucas v. SC Coastal Comm., 505 US 1003. 112 S.Ct.2886, 1992,pages 24,27,38,39
5. Nollan v. Calif. Coastal Comm.. 483 U. S. 825 (1987)
6. Old Colony F.R.R.R. v. Plymouth, 14 Gray 155. 161
page 23,39
7. Palazzolo u. RI, 99-2047 (2001)
pages 24, 27, 37
8. Penn Central Transv. v. NY City 438 U.S. 104 1978
page 38
9. Penn. Coal Co. v. Mahon, 260 U.S. 393
page 37
10. U.S v. General Motors 323 U.S. 373. 378
page 24, 40
11. U.S. v. 564.54Acres. 441 U.S. 506. 511
Definition of Just Compensation
20. Mesas Aselbekian v. Mass. Turnpike Auth. 341 Mass. 398 (1960),
Civil Rights Cases

(cited together, pages 10,41)

30. Bryan County v. Brown, 520 U.S. 397
31. Mitchum v. Foster. 407 U.S. 225, 92 S.Ct. 2151
32. Monell u. NYC Dept. Social Serv.. 436 U.S. 658
33. Monroe v. Pave 365 U.S. 167;
34. Parratt v. Taylor 451 U.S.,101 S.Ct. 1908, (1981);
35. Pembaur v. Cincinnati, 475 U.S. 469 (1986);
36. St. Louis v. Praprotnik, 485 U.S. 112. 127 (1988)
37. Willowbrook v. Olech, 528 US 562. 120 S.Ct. 1073
38. Yick Wo v. Hopkins 118 US 356 (1886)
Massachusetts Zoning Cases
40.
41.
42.
43.
50.

(cited together p. 16,41)

Derby Refining Co. v. Chelsea 407 Mass 703 1990
Ka-Hur Ent. v ZBA Provincetown 424 Mass 404
Pioneer Insulation v. Lynn 331 Mass 560
Revere v. Rowe Contracting 362 Mass 884
Ward v. Village of Monroeville. 409 U.S. 57, 60;

Immaterial Cases Cited by Lower Court
51. Giovanella v. Conservation Comm. Of Ashland. 857 N.E. 2d, 451, 461
(Massachusetts 2006)
52. Guinn v. Bd. of Cty. Commissioners for Queen
Anne’s Cty. 862 F.3d 433, 443 (Maryland 2017)

IV

p. 26
p. 29

Compensation Required
60. Standards for Just Compensation, M. Leroy
61. The Measure of Just Compensation, K. Wyman, NYU
Orders Entered
Court
Item
Court of Appeals, Massachusetts
No. 20-1242
(denial of appeal)
02/12/2020 Massachusetts District Court
l:19-cv-12152 Walker
06/15/2020 Court of Appeals, Massachusetts
DAR-22399
(denial of appeal)
08/09/2019 Massachusetts District Court
15-13794 Bowler
Date
02/22/2021

Other Authorities
It is the unjust judge, that is the capital remover of landmarks, when he
defineth amiss, of lands and property... Nothing doth more hurt in a state,
than that cunning men pass for wise... Persons that are full of sinister tricks
and shifts, whereby they pervert the plain and direct courses of courts, and
bring justice into oblique lines and labyrinths.
-Francis Bacon, Essays
Here let those reign, whom pensions can incite,
To vote a patriot black, a courtier white,
Explain their country’s dear-bought rights away,
And plead for pirates in the face of day.
-Samuel Johnson, London, 1738
The United States has been... a government of laws, and... will cease to
deserve this... if the laws furnish no remedy for the violation of a vested legal
right.
- John Marshall, Marbury v. Madison, 1803
The greatest dangers to liberty lurk in insidious encroachment by men of
zeal, well-meaning but without understanding.
- Louis Brandeis, Olmstead u. U.S., 1928
The rights of every man are diminished when the rights of one man are
threatened.
- John F. Kennedy, report on civil rights, 1963

v

Jurisdiction
Jurisdiction of the United States Supreme Court is conferred by Article III §§
1,2 of its Constitution; 28 USC §2106 confers jurisdiction to modify or reverse any
judgment or order of court brought for review.
This petition is brought under the Civil Rights Act (42 USC §§1983 to 1986),
for violation by defendants of Plaintiff rights guaranteed by the United States
Constitution, including his right against property taking without compensation
(Amendment V) and without due process of law (Amendment XIV §1), and his right
to equal protection of law (Amendment XIV §1). The Massachusetts statutes M.G.L.
Ch. 40A and 79, are unconstitutional as applied to deny the Plaintiff relief.
The federal courts have jurisdiction under 28 USC §1331 of claims herein of
violations of rights guaranteed by the Constitution; and under 28 USC §1343(1-3) of
claims herein of deprivation of civil rights in violation of 42 USC §§ 1983-1986; and
under 28 USC §1332 of all claims herein, as Plaintiff is a resident of Maine,
whereas the defendants are of Massachusetts.
The First Circuit Court of Appeals incorrectly affirmed the false decision of
the Massachusetts District on February 22, 2021. This petition is timely brought
within 90 days thereof, per Supreme Court Rule 13.1.

vi

Provisions of the United States Constitution
Amendment V:
"No person shall...be deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use without just
compensation."
Amendment XIV Section 1:
"... No state shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United States; nor shall any State deprive
any person of life, liberty, or property, without due process of law; nor deny
to any person within its jurisdiction the equal protection of the laws."
Statutes of the United States
42 USC
18 USC
18 USC
18 USC
18 USC
18 USC

§§ 1983 to 1988 (Civil Rights Act)
§ 242 Denial of Constitutional Rights
§ 371 Fraud Against the United States
§ 1341 Violation of Honest Services
§ 1621 Perjury
§§ 1952-1968 RICO

Statutes of Massachusetts
G.L. Chapter 40A (zoning; exemptions)
§§ 6, 10, 17 et al
G.L. Chapter 79 (taking of private property)
§§ 6, 7B, 10, 12, 14, 16, et al

(pages 3, 13, 48)

(pages 9-11, 20, 27, 49)
(pages 11, 12)

Ordinance of the defendant City of Peabody
Zoning ordinance §§1.5.1 (special permit “variance”), 1.5.1 (exemption) and
1.5.4 & 6 (time limits)
(page 9)

Vll

Statement of the Case with Pertinent Facts
1. A dwelling upon the subject property of Plaintiff was constructed c. 1800 AD, a
log frame rural dwelling. Over two centuries adjacent lots were carved off and
homes built; all became "nonconforming" with later zoning ordinances, but
residential use continued as usual.
2. The property was foreclosed in 2009. Neighbors alleged health concerns, city
officials issued careless orders, the lack of FHLMC response outraged them, and
they offered its use to neighbors for parking. The city improperly ordered
demolition, and the structurally sound antique home was demolished 4/9/2011.
3. Plaintiff knew constitutional and land use law through charity work, and that
zoning nonconformity has no effect upon the title right to rebuild a home. He
needed a Boston residence to continue engineering work despite recent medical
problems limiting commuting time, had the permitting and construction skills and
cash to build, and without competition acquired the property 9/8/2011 at a minimal
price. But the value to him was the full value of a residential lot near Boston. He
proceeded rightfully with plans to replace the home, (Appendix B), fortunate to
recover his working ability.
4. Plaintiff promptly had a site plan drawn showing the proposed home to be “no
more nonconforming” (within the former footprint, with no other nonconformities)
and therefore exempt from zoning ordinances under state law: MGL Ch. 40A §6. All
defendants knew that zoning ordinances cannot be lawfully applied in this case.
5. Plaintiff application for building permit to replace the home was denied by the
city. Despite echoing the Ch. 40A§6 exemption, the city zoning ordinance §1.5.1
unlawfully requires a “variance” from its Dimensional Controls from its Zoning
Board of Appeals (ZBA), as noted in the denial letter, in violation of MGL 40A§6.
6. Plaintiff applied for the demanded variance, for hearing at ZBA meeting
November 2011, citing the constitutional, statutory, and ordinance provisions that

1

permit rebuilding. The ZBA thus knew that denial would violate state law, and
would constitute taking of property requiring just compensation, which at that
point was land value plus design and permit costs.
7. Many city officials believed that, if Plaintiff obtained land at a low price, then
magically the city had a right to take it for that price for purposes of neighbors, or
to destroy its value. They endlessly cited the price paid to recruit others to oppose
him. But these notions have no basis in law, and are no less than rationales for
crime.
8. Efforts were made by city officials to force use of the property for parking to
benefit neighbors. Contractors were asked to charge many times customary fees for
services to Plaintiff, and numerous city proceedings (building, ZBA, and
conservation) were demanded despite statutory exemptions, requiring six successive
complete home designs, many months of work, hiring surveyors and an
environmental consultant, and attending many meetings far from Plaintiffs home.
Plaintiff made these investments (Exh. 21) with assurance of law that "reasonable
investment-backed expectation of value" [9, 7] must be compensated.
9. To educate ignorant officials that they cannot seize property for the lowest price
ever paid, Plaintiff advised the ZBA (Exh 10) that "just compensation" means fair
market value, whereupon the city fraudulently reduced its sworn assessed value by
more than 97 percent from $112,200 to $3,200 (Exh 20, 30-38) while increasing the
assessed land value of both adjacent parcels in the same prior use. This proves
intent and admission of taking substantially all value of the property, and is an act
of perjury (MGL Chapter 66 §§5A, 6, 16). Based upon adjacent parcel land
assessments, the 2014 FMV was $139,440, to which development investment is
added.
10. Every objection was overcome by Plaintiff investments: the plans met all
regulations, the city engineer approved, neighbors approved, and Conservation
approval was obtained 5/7/2012 (Exh. 13).

2

11. The zoning ordinance Use Table (Exh. 40 zone R1A) permits only Residential,
Educational, Church, and Agricultural uses. All require structures except
agricultural use, which is uneconomic. The newer minimum yard dimensions leave
no area for structures on the old lot, so no use is permitted under present ordinance
except continuation of residential use. Therefore denial of residential use would
take “all or nearly all value” of the lot value plus development costs.
12. On 7/16/2012 the five-member ZBA (four present) voted with only one member
(defendant Panos) opposing the variance, insufficient under MGL 40A to approve a
motion. The city thereby unlawfully denied the variance Panos unlawfully
demanded to replace the home. Plaintiff demanded compensation at the hearing,
but chair Panos refused. The notice of denial of variance (Exh 14) proves public
taking of the principal use of the property by defendant city, and proves deliberate
violation by Panos of MGL Ch. 40A§6.
13. This refusal to award damages concurrent with taking or petition is in violation
of MGL Ch 79 §§ 6, 7B, and 10, and owner rights to compensation and equal
protection under the U.S. Constitution, Amendment V and XIV, and the Civil
Rights Act 42 USC §§1983-1988.
14. Under MGL Chapter 79 §14 Plaintiff filed action for compensation 8/2/2012 in
Superior Court in Salem, MA.
15. The property is in part of Salem that later became Peabody, whose court
succeeds that of the 1640s Salem Witchcraft Trials when similar property was
taken by judicial corruption, recorded in Hawthorne’s House of Seven Gables. The
Essex court now embodies the Mafia subculture celebrated in Peabody. Defendant
Buckley made endless perjuries there, his primary skill.
16. Compensation was denied without cognizable argument by the Salem court,
appealed at state level, and appellate review by the state court of last resort was
denied. Perjury and corruption still rules there.

3

17. The case was brought to U.S. District Court (MADC 15-13794), where
defendants Buckley and Panos made the endless perjuries detailed in this perjury
case.
18. The corrupt magistrate Bowler denied Motions for Summary Judgment without
cognizable argument, denied the Plaintiff the mandated pre-trial and trial briefs of
defendant, prevented jury viewing of plaintiff exhibits, instructed the jury to ignore
essential plaintiff statements, and committed numerous perjuries in instructions to
the jury, with false statements of fact and false standards of judgment, to deny
rights of the plaintiff guaranteed by the United States Constitution. These are
crimes, for which Bowler has no immunity.
19. That decision was appealed to the First Circuit court of appeals which corruptly
affirmed, claiming absurdly that absence of a transcript prevented judgment of
claims and facts unrelated to trial process.
20. The present defendants were prosecuted for their perjuries and abuses of office in
the original action, again in the Massachusetts district, where the corrupt judge
Walker dismissed the action on absurd claims of res judicata, insufficient
allegation, and absolute immunity, claiming these to be “axioms of black-letter
law,” an admission of corruption. Appeal to the First Circuit brought an
unsupported affirmation to protect comrade Bowler, an act of paleolithic tribalism
to advance their anti-Constitutional cabal.
21. These facts establish perjury and abuse of office by defendants to deny statutory
exemptions that permit rebuilding homes. The defendants are principals in the first
degree by commission, solicitation, protection, and ratification, and accessories
before and after the fact, in perjury and abuse of office, in collusion to deny
compensation and violate Constitutional rights. These are not claims in the original
action, and the operative facts are clearly distinct, hence not res judicata. Related
facts only show consequent damage by property taking.

4

22. The 97% city assessed land value reduction in sworn 2010-2012 records, while
increasing the land value of same-use adjacent parcels, admits its intent and belief
that it had taken, nearly all value of the property.
23. The Plaintiff is not a member of a political party, but is now prosecuting theft of
$120 million in conservation funds by Florida politicians and a state judge who
turned out to be of one party. That case has been blocked by Republican judges for
several years. This is the motive of Bowler, Walker, and the First Circuit in using
false pretexts to deny rights of the Plaintiff.
Reasons for Granting Certiorari
The original case unconstitutionally denied compensation to the plaintiff for
constructive Taking of Property by application of an ex post facto city zoning
ordinance to prohibit rebuilding of a home, in violation of statutory exemption. It
ignored the unconstitutional denial of Equal Protection of Law by defendant failure
to apply that ordinance to adjacent properties. The city lawyer Buckley and zoning
chair Panos simply made profuse perjuries as to the facts, law, and course of
proceedings, to cover up city theft, and were joined by the corrupted magistrate
Bowler in numerous perjuries and extreme distortions of trial process. Upon
prosecution for perjury, the notorious judge Walker resorted to more perjuries to
cover his friend’s perjuries: the unsupportable excuses of res judicata, lack of factual
allegation, and absolute immunity.
The perjuries of the defendants on the record are sufficient for summary
judgment. The district and circuit judges sought to cover up undeniable perjuries
and abuses of office by their friend Bowler, in deliberate subversion of the United
States Constitution. These are acts of extreme corruption which must be reversed.
Question l.c deals with the constructive taking of property and denial of due
process and equal protection, which injured the plaintiff by preventing employment.
Decision of this question permits compensation.

5

The judgment is repugnant to the Constitution, based upon improper
influence, and without ruling by this Court will set an unacceptable precedent
requiring later intervention. The questions merit certiorari due to conflict of the
judgment with decisions of this Court per Rule 10(c.), and with decisions of the U.S.
courts of appeals per rule 10(a) and 10(b).

6

Reasons for Certiorari for Question 1 (allegation)
1. Are the 120 paragraphs of detailed factual statements in the Complaint
and Appendix, together with numerous public record exhibits of
defendant perjuries and abuses of office, sufficiently detailed to rise above
mere “speculation,” the perjury of the lower court?
a. Did defendants Buckley and Panos commit perjury in the original case?
b. Did magistrate Bowler commit perjury and abuse of public office in the
original case?
c. Did these perjuries and abuses of office have the effect of violation of
plaintiff rights under Amendments V and XIV to Due Process of Law, to
Equal Protection of Law, and against the taking of property without
compensation?
This question is of critical importance in the protection of constitutional
rights and judicial process from perjury and abuse of public office.
The perjuries and abuses of office by Buckley, Panos, and Bowler are fully
stated and evidenced in 95 Complaint paragraphs, 25 Appendix paragraphs of
detailed factual statements, and many exhibits. It is clear on the evidence that the
defendants were aware that their actions were perjuries, abuses of public office, or
both. These statements and evidence are sufficient for summary judgment. The
lower court perjury that this detailed evidence is insufficient even for allegation and
mere “speculation” is a prima facie perjury and was “supported” by nothing: a single
immaterial citation.
The unsupportable false claim by the corrupted judge Walker, anxious to
cover for his friend Bowler, that a very well-stated and fully-evidenced case is
magically insufficient even to allege claims, is a crime as injurious to the United
States as the original claims.

7

Sufficiency of Allegation
Standard of Judgment
A court may dismiss a claim for insufficient allegation only where “no
construction of the factual allegations will support the cause of action.” [40]
Marshall Cty. Bd. of Educ. v. Marshall Cty. Gas Dist.
The district court corruptly equivocated allegation with proof, absurdly
presenting only the extreme case Bell Atlantic Corp. v. Twombly [10] where no
specific allegations at all were made to support a claim of price-fixing. This is
plainly immaterial. The lower court sought to sleaze its way to discretionary denials
of constitutional rights, an attack upon the Constitution by judges loyal only to
political gangs.
Application of the Standard to the Case
The Complaint far exceeds the standard for sufficient allegation in 95
Complaint paragraphs and 25 Appendix paragraphs of detailed factual statements,
which with the exhibits and record prove beyond reasonable doubt the perjuries and
abuses of office by the defendants. This evidence is sufficient for summary judgment
against the defendants, which was denied without argument by the lower court.
Any challenge to sufficiency of allegation is an admission of perjury.
The decision deliberately violated the admitted standards of judgment of
dispositive motions and of sufficiency of allegation, ignored the clear fact
allegations, claimed falsely that proof rather than fact allegation is required, failed
to find any specific insufficiency of allegation, and falsely stated the established law
to create fake barriers. No cognizable grounds for dismissal was argued.
The lower court decision claiming that these statements and evidence offer
mere “speculation” is a prima facie perjury of the district court, evident upon a first
reading of the Complaint and Appendix. This is solid evidence of corruption of

8

Walker: the district and appeals judges should be removed from office for seeking
and stating absurd excuses to dismiss without cause.
Perjury by Buckley and Panes
Defendant Buckley made hundreds of perjuries and deceptions as city counsel
in eight years of litigation, and made no true material statement except as a
prelude to deception. Many of these were repeated at trial to prejudice a jury
without knowledge of the law. Buckley sought to injure the plaintiff for personal
gain.
Buckley committed numerous rules violations to obstruct justice, including
failure to send motions to the Plaintiff, hiding dispositive motions in other
documents, sending parts of documents excluding dispositive motions, and failing to
serve a pretrial memorandum and trial brief. Nearly all Buckley oaths are
perjuries.
Perjury in Pretrial Process
Buckley failed to serve the Pretrial Memorandum required by the FRCivP,
denying Plaintiff opportunity to prepare for hearing. The lower court sent this after
the Pretrial Conference. The permission of this abuse by Bowler is an extreme
abuse of office.
Buckley also failed to serve the Trial Brief required by the FRCivP, denying
the Plaintiff the mandated opportunity to prepare for trial. The permission of this
abuse by Bowler is an extreme abuse of office with intent to deny constitutional
rights.
Perjury at Trial
1. Perjuries by Defendant Buckley
Buckley was allowed at trial to restate long-discredited perjuries about his
depositions of the Plaintiff, which were in fact dirtbag attempts to deceive the court
with perjuries. He tried to prevent the Plaintiff from recording a second deposition

9

so that he could lie about what was said. Such a demand is without FRCivP basis
and is an admission of intent of perjury. The Plaintiff recorded an eight-minute
conversation in which Buckley refused to allow the session to be recorded, and the
Plaintiff stated that there would be no deposition if he could not record it. That
recording filed with the court establishes many more perjuries by dirtbag Buckley
to the lower court, including his intent to commit perjury.

2. Perjuries by Defendant Panos
Panos was the city ZBA chair and sole vote against the variance he had
unlawfully demanded. The Plaintiff was repeatedly interrupted by defendant
Bowler in questioning witness Panos, who committed many perjuries on the ZBA
process, to slander the Plaintiff and prejudice the jury, for personal gain.
At issue were ordinary lot drawings for the ZBA, the first (1) by a dishonest
surveyor, lacking required details, but with false notes of a non-existent easement.
The city engineer noted details missing from that first drawing, so Plaintiff
submitted (2) his clearly-marked revision thereof to include the details requested.
The dishonest surveyor, angry that the Plaintiff would not pay him seven times as
much to correct his drawing, falsely claimed to the ZBA that this was a “forgery”
although very clearly marked as a revision. The Plaintiff retracted the revision and
submitted (3) the same drawing without reference to the dishonest surveyor. The
ZBA declined that without a surveyor seal, whereupon the Plaintiff filed (4) a
drawing by a better surveyor, which was accepted by the ZBA.
Panos repeatedly committed perjury as a witness in denying that any
drawing had been submitted to the ZBA but the withdrawn plaintiff revision. But
he admitted other documents that prove that he knew of all of the drawings. His
denials were perjuries under oath, fully documented in the brief.
Panos admitted the ZBA letter he signed, denying the permit on unlawful
grounds of zoning controls, also proving that the ZBA had accepted the fourth

10

drawing. Panos admitted three perjuries of essential facts, to deceive the jury to
permit theft by his employer.
The perjurer Panos repeatedly shouted that the revision was somehow a
“forgery” rather than a clearly-marked revision. When asked several times to read
to the court the statement on the drawing that it is a revision, Panos repeatedly
changed the subject, and Bowler refused to demand that he answer, but instead
demanded that the Plaintiff not ask the question. These are deliberate perjuries
and abuses by Panos and Bowler, intended to deny rights of the plaintiff.
MGL Ch. 40A requires at least four members of a five-member ZBA to
approve variances. Three of the four who attended the ZBA meeting voted to
approve the variance. Only Panos voted against the variance he had unlawfully
demanded, leading to eight years of losses and litigation, his motive for perjury.
The Plaintiff questioning of Panos was cut short many times by Bowler,
preventing exposure of his perjuries to the jury. Bowler blocked the Plaintiff
introducing the actual ZBA drawings used (exhibits 17, 13) until just before closing
statements, allowing the jury to be deluged with perjuries by Panos, whose
unlawful acts caused the property taking, and blocked explanation of the real
drawings. Bowler acted in knowing criminal collusion with criminals.
3. Buckley, Panos, and City are Liable for Perjury
The deceitful district judge Walker constructs an excuse for Buckley and
Panos, that city liability for their acts as employees and agents exonerates them
[App. p. 60], which is prima facie false argument. He copies the absurd deceit of the
defendants that their common liability is res judicata due to prior action, although
fully aware that THERE IS NO “COMMON NUCLEUS OF OPERATIVE FACT”

OF PERJURY BETWEEN THE CASES. BECAUSE THE OPERATIVE FACTS
ARE PERJURIES AFTER THE PERIOD OF OPERATIVE FACTS OF THE
PRIOR CASE. GOT THAT. WALKER? Walker simply proved himself another
perjurer to be prosecuted and removed from office.

11

Perjury and Abuse of Office by Bowler
Perjury and Abuse in Pretrial Process
Bowler allowed the defendants to violate essential Rules of Civil Process by
refusing to serve their Pretrial Memorandum or Trial Brief upon the Plaintiff,
denying the Plaintiff the ability to prepare for pretrial conference or trial.
The Plaintiff complained at pretrial conference, but Bowler took no action
clearly intending to deny due process and equal protection of law.
The Plaintiff complained before trial that he was not sent the defendant’s
trial brief, and could not prepare evidence or witnesses, but Bowler ignored this
extreme violation, to deny fair trial to the Plaintiff.
These abuses by Bowler clearly denied a fair trial with intent to deny due
process and equal protection of law, and to deny the right against government
taking of private property, based solely upon perjuries and abuses of office. These
abuses are clear on the record.
Perjury and Abuse in Conduct of Trial
1. Abuse of Office by Bowler in Communications With the Defendants and Jury
At the outset of trial, it was clear that there were corrupt arrangements
between Bowler and Buckley, who showed a suddenly positive relationship.
On the second and third days of trial, it was clear that the jury had been
coached to favor the defendant, as the defendant had no defense other than
perjuries, with no evidence or cognizable argument whatsoever.

2. Abuse of Office by Bowler in Trial Process
Bowler repeatedly denied the Plaintiff right to fully question a city employee
witness who committed many perjuries on non-determinative issues of zoning
process, to prejudice the jury by constructing a false rationale for theft of property.
The Bowler denial of defendant Trial Brief denied opportunity to prepare for the

12

false witness. Plaintiff questioning was repeatedly stopped by Bowler, and he was
not permitted to introduce contrary exhibits until the day after these perjuries, so
as to prejudice the jury.
Bowler demanded the Plaintiff stand about thirty feet away to make
statements to the jury, so that his 3 ft. by 4 ft. displays of the exhibits could not be
read. Bowler blocked him passing smaller exhibit displays to the jurors. His
exhibits of treatments for thrombosis which limited his commuting range and
necessitated residence at the property were withheld from the jury. His exhibits of
thousands of employment applications which failed due to out of state residence due
to the denial of residential use of the property, were withheld from the jury. No
exhibit restrictions were placed upon the defendant. These were all deliberate
denials of Due Process and equal protection of law by Bowler, with intent to deny
rights of the Plaintiff.
This evidence was only admitted by Bowler on the last day of trial, after the
jury had been subjected to endless perjuries by the defendants, another deliberate
denial of Due Process and Equal Protection of Law, with intent to deny rights of the
Plaintiff.
The Bowler jury instructions were shown to the Plaintiff with a mere 15
minutes to study and object to the 65-page memorandum of law in the footnotes.
They consisted solely of perjuries as to the law. The Plaintiff nonetheless made the
major objections argued in the brief at Lower Court Errors of Instructions to Jury,
which were ignored by the magistrate, saying only “I have ruled.” These perjuries
are an extreme denial of Due Process and Equal Protection by Bowler, with intent
to deny the plaintiff rights against taking of private property. The evidence is on
the record.
Perjury in Instructions to the Jury
The issues of federal law were fully briefed by the Plaintiff with definitive
arguments of federal law on each point. Bowler had these clear statements, and

13

chose instead to subvert the United States Constitution and the rights of its People,
by inventing utterly false standards of judgment, asserting those as the law, and
demanding IN ALL CAPS that the jury act accordingly.
Bowler gave the jury carefully-distorted instructions on each issue, using a
single anomalous state decision, invoking long-superceded decisions, and inventing
non-existent “principles of law,” with all-capitalized demands that the jury decide
accordingly.
These Bowler perjuries and abuses of office were deliberate denials of Due
Process and Equal Protection, with intent to deny the plaintiff rights against
government taking of private property.

1. Perjury in Hiding the State Standard of Property Taking
The instructions to the jury failed to apply the state standard of property
taking, which is even more inclusive than the federal standard, and is the correct
standard of judgment in cases of state takings. In James G. Cavon vs. City of
Chicopee & another [108] the court ruled that
It is well settled that a taking of private property for which compensation
must be paid is not necessarily restricted to an actual physical taking of the
property. See Nichols, Eminent Domain (Rev. 3d ed.) Section 6.1. This rule
has long been recognized in this Commonwealth. In Old Colony & Fall River
R.R. v. County of Plymouth. 14 Gray 155 , 161 [107], we stated that private
property can be "appropriated" to public use "by taking it from the owner, or
depriving him of the possession or some beneficial enjoyment of it."
Likewise, the Supreme Court of the United States has stated that
"[governmental action short of acquisition of title or occupancy has been
held, if its effects are so complete as to deprive the owner of all or most of
his interest in the subject matter, to amount to a taking." United States v.
General Motors Corp. 323 U.S. 373, 378 [105]

14

The state standard of taking of property is that the owner has been deprived of
“some beneficial enjoyment” of it. That is the standard applicable to this case.

2. Perjury as to the Federal Standard of Property Taking
The instructions to the jury falsely and absurdly stated (p.21) that all property
value must be taken by government to constitute a taking of any property (!):
“THIS FORM OF TAKING IS LIMITED TO THE EXTRAORDINARY
CIRCUMSTANCE WHEN NO PRODUCTIVE OR ECONOMICALLY
BENEFICIAL USE OF THE LAND IS PERMITTED, IN OTHER WORDS,
THE PROPERTY IS RENDERED ECONOMICALLY USELESS.”
This statement has no basis in law whatsoever, is plainly false, and intended to
throw the case to the city for bribes and political party benefit.
In fact this Supreme Court in Palazzolo v. Rhode Island. 99-2047 (2001) [1]
well summarizes its prior judgments on public taking of private property, quoted
below at Taking of Private Property, Conflict With Rulings of this Supreme Court.
This Court recognized that even the Lucas [102] criterion of "all economically
beneficial use" having been taken is met despite uses of minor economic value
which may remain after the principal use is taken (in Lucas as in this case,
agricultural use remained when residential use had been taken):
Assuming a taking is otherwise established, a State may not evade the duty
to compensate on the premise that the landowner is left with a token
interest.
Citizens may not rob banks with impunity, with the defense that not everything
was taken, that the bank property is still worth something, or that a nickel was
thrown at a victim on the way out. No such principle has ever been applied in civil or
criminal cases of property taking, nor in cases of federal or state property takings.
Bowler’s statements were outright perjuries.
The criterion of property taking under US law is “all or most” of the property
value, and this is indisputably met by the defendant taking of over 97 percent of the
value of the subject land by its sworn admission, and over 99 percent of the value of

15

the land plus development costs. There is no question of fact or law, that the
present case fully meets both the state and federal criteria of property taking. But
the jury instructions deliberately contradicted case law, admitting that immaterial
case law was substituted at the request of the defendant(!). The false jury decision
resulted from false instructions as to the law by Bowler.
The jury instructions stated falsely that no property is taken unless it is all
taken, exonerating the bank robber on the grounds that he dropped a nickel on the
way out, and therefore took nothing. This egregious and ludicrous argument would
never have been made had the property of Bowler been taken. The Plaintiff moved
that the court take 97percent of city or Buckley property and give it to him, to find
what they really think about property taking, and Bowler denied this.
Bowler admitted in the jury instructions (footnote p.21) that this
contradiction of state and federal law was based solely upon a defendant request to
substitute a single immaterial state case for the entirety of state and federal case
law (!):
“DEFENDANT REQUESTS THE “ECONOMICALLY USELESS”
LANGUAGE... WHICH THE LAW SUPPORTS.”
(citing Giovanella f1])
But Giovanella is just another case of proposed new uses of land, utterly immaterial
to the present case of denial of established land uses. These are completely different
areas of case law, as fully argued by the Plaintiff in the Memorandum of Law.
1

Giovanella v. Conservation Comm. OfAshland, 857 N.E. 2d, 451, 461 (Mass. 2006) This case
concerns a proposed new land use and is immaterial to the present case. It also (1) ignored the
state criterion of property taking and so had no validity under state law. It also (2) ignored
modem case law and misstated even the antiquated Penn Central standard for property takings.
Finally (3) the case tampered the definition of the subject property, adding an adjacent parcel to
dilute the effect of taking all value of the subject lot, to conclude that not enough of the two lots
was taken. This is an exercise in false legal argument, in addition to being immaterial to the
present case of denial of established land uses. This citation further establishes the corruption of
the district judge.

16

Established land use is an unconditional vested right, unlike proposed new land
uses which may conflict with a public interest.
The jury instructions falsely and absurdly stated (p. 21, citing Lucas) that
over 95 percent of property value must be taken by government to constitute a
taking of private property.
“A CATEGORICAL TAKING WOULD NOT APPLY EVEN IF THE
DIMINUTION IN THE VALUE WERE 95% INSTEAD OF 100%”
But in fact, in Palazzolo, the Supreme Court recognized that even the Lucas [102]
criterion of "all economically beneficial use" having been taken is met despite uses
of minor economic value which may remain after the principal use is taken:
Assuming a taking is otherwise established, a State may not evade the duty
to compensate on the premise that the landowner is left with a token
interest.
The jury instructions also stated falsely (p. 25) that
THE TAKINGS CLAUSE OF THE FIFTH AMENDMENT DOES NOT
REQUIRE COMPENSATION WHEN A PROPERTY OWNER IS BARRED
FROM PUTTING HIS PROPERTY TO A USE THAT IS PROSCRIBED BY
EXISTING RULES OR REGULATIONS.
This statement falsely instructed the jury to ignore the determinative facts, that the
defendant zoning ordinance (1) was specifically barred from use against home
rebuilding by MGL Chapter 40A, and (2) was enacted over two centuries after the
residential land use was established, by city admission, and was therefore an
unconstitutional ex post facto law as applied.
Although the jury instructions later admit that Massachusetts law Chapter
40A specifically allows the rebuilding of a one or two-family house that is
nonconforming with subsequent zoning ordinances as long as the rebuilding is not
more nonconforming therewith than the original house, it falsely instructs the jury
(p.28-9) that the proposed rebuilding was more nonconforming only because a
second floor was added:
“ADDING A SECOND STORY TO A PREEXISTING NONCONFORMING
CARRIAGE HOUSE MAY INCREASE THE NONCONFORMING NATURE

17

OF THE CARRIAGE HOUSE TO PRECLUDE THE PROPOSED
RECONSTRUCTION.”
But in fact the new height in this case (about 27 ft.) conformed with the 35-foot
height restriction under the later zoning ordinance, so again the instruction was
completely false. The Plaintiff was denied the right to introduce the state law or
zoning ordinance to show that the rebuilding was no more nonconforming than the
original. Again perjury in jury instructions and abuse of process caused the
erroneous verdict.
The jury instructions falsely state (p. 34) that property is not taken by
regulation where the regulation intends to “serve the common good” as do all
regulations.
“I INSTRUCT YOU THAT A TAKING IS MORE READILY FOUND WHEN
THE GOVERNMENT INTERFERENCE WITH THE PROPERTY CAN BE
CHARACTERIZED AS A PHYSICAL INVASION BY GOVERNMENT. IN
CONTRAST, WHEN THE INTERFERENCE BY GOVERNMENT
REGULATION ARISES FROM A PUBLIC PROGRAM THAT ADJUSTS
THE BENEFITS AND BURDENS OF ECONOMIC LIFE TO PROMOTE
THE COMMON GOOD, IT IS LESS LIKELY THAT THE CHARACTER OF
THE GOVERNMENT ACTION WILL SUPPORT FINDING A TAKING.”
(citing [2])
But in fact all regulations are presumed to be intended to serve the common good.
Issues of regulatory intent are considered when a proposed, new land use is taken,
but not in denial of established land uses where the Takings Clause of Amendment
V is “self-executing.” The federal law is correctly stated in the Plaintiff
Memorandum of Law. The jury instructions were willfully falsified, and the
resulting erroneous jury decision cannot be allowed as precedent.
The jury instructions (p. 35) further stated falsely that
“ZONING LAWS WHICH CONTROL DENSITY AND LIMIT OVER
DEVELOPMENT ARE ANOTHER EXAMPLE OF GOVERNMENT
REGULATION THAT SERVES THE COMMON GOOD BECAUSE THEY
PRESERVE OPEN SPACES, AND ARE THEREFORE LESS LIKELY TO
CONSTITUTE A TAKING.”
(citing [2, p.36] as follows)

18

“in instances in which a state tribunal reasonably concluded that that the
“health, safety, morals, or general welfare” would be promoted by prohibiting
particular contemplated uses of land, this Court has upheld land-use
regulations that destroyed or adversely affected recognized real property
interests.
But again the cited case Quinn dealt with a proposed new land use. not an
established land use. for which the state and federal standards are different. The
case is again immaterial, and the jury instruction was falsified.
Regulatory intent is material only where a proposed new land use conflicts.
The jury instructions falsely applied that criterion to the taking of established land
uses in contradiction of the “self-executing” Fifth and Fourteenth Amendments.
Bowler willfully committed perjury, substituting false criteria, ignoring the
federal law clearly before her in the Plaintiff Memorandum of Law, Pretrial
Memorandum, and Trial Brief. Bowler falsified the jury instructions, committing a
deliberate abuse of office.
3. Perjury in Statement of the Federal Standard of Equal Protection
The right of citizens under Amendments V and XIV of the United States
Constitution to Equal Protection of Law was violated by the city in denying the
established use of the subject land, for nonconformity with dimension rules of a
zoning ordinance unlawfully applied, while permitting the same use to continue on
both adjacent properties with identical nonconformity with the inapplicable rules.
Defendant Bowler stated falsely in the jury instructions that Equal
Protection is not denied unless the government entity is shown to have acted with
“malice” toward the victim.
“NOW, IN ADDITION TO THESE TWO ELEMENTS, THE PLAINTIFF
MUST PROVE THAT, COMPARED WITH OTHERS SIMILARLY
SITUATED, HE WAS SELECTIVELY TREATED AND THAT SUCH
SELECTIVE TREATMENT WAS BASED ON IMPERMISSIBLE
CONSIDERATIONS SUCH AS RACE, RELIGION, INTENT TO INHIBIT
OR PUNISH THE EXERCISE OF CONSTITUTIONAL RIGHTS, OR
MALICIOUS OR BAD FAITH INTENT TO INJURE A PERSON.”

19

In fact the Supreme Court held in Parratt v. Tavlor. 451 U.S. 527 (1981) that
section 1983 action does not require showing of a state of mind such as malice for
liability [10]:
Section 1983, unlike its criminal counterpart, 18 U.S.C. 242, has never been
found by this Court to contain a state-of-mind requirement. 2 The Court
recognized as much in Monroe v. Pape, 365 U.S. 167 (1961), when we
explained after extensively reviewing the legislative history of 1983, that
"[i]t is abundantly clear that one reason the legislation was passed was to
afford a federal right in federal courts because, by reason of prejudice,
passion, neglect, intolerance or otherwise, state laws might not be enforced
and the claims of citizens to the enjoyment of rights, privileges and
immunities guaranteed by the Fourteenth [451 U.S. 527, 535] Amendment
might be denied by the state agencies." Id., at 180.
Clearly this instruction to the jury was completely and willfully falsified, an act of
perjury and abuse of office by Bowler, which caused an erroneous verdict.
Bowler stated falsely in the jury instructions that Equal Protection requires
comparison with treatment of properties having exactly identical circumstances
with the subject, rather than properties “similarly situated.”
“ZONING DECISIONS WILL OFTEN, AND PERHAPS ALMOST ALWAYS,
TREAT ONE LANDOWNER DIFFERENTLY FROM ANOTHER.
THEREFORE, IN A LAND-USE CASE SUCH AS THIS ONE, THE
PLAINTIFF MUST SHOW BY A PREPONDERANCE OF THE EVIDENCE
AN EXTREMELY HIGH DEGREE OF SIMILARITY BETWEEN HIMSELF
AND THE NEIGHBORS TO WHOM HE COMPARES HIMSELF.”
The Plaintiff properly argued (exhibits 1, 2, 6,11,13,17, Memorandum of Law,
Denial of Equal Protection of Law) that the adjacent lots had non-conformities with
zoning rules for distance from lot boundaries, passed after the property use was
established, as did the subject property, and that the same rules applied unlawfully
to deny the same established use to the Plaintiff, were not applied to the adjacent
properties. This wholly falsified instruction by Bowler ordered the jury to make an
erroneous decision, with intent to deny Due Process and Equal Protection Law to
the Plaintiff.

20

The city has not denied continuation of established use of other
“nonconforming” properties similarly situated, such as both adjacent homes, but
denied this for the Plaintiff. The city permits rebuilding of homes, but despite the
clarity of the laws, complaint, and argument, the city refused to enforce the law for
the Plaintiff, as established clearly by public record.
There is no more common abuse of public office than local authorities taking
sides regardless of law for real or perceived gains to their political, religious, or
other tribal group. When judges show the same motives, winking at obvious and
admitted abuses, deliberately misstating law and distorting trial process, they
abuse their office in league with local officials, often seeking rewards as payments
to their political party operatives.
The... United States has been... a government of laws, and... will cease to
deserve this... if the laws furnish no remedy for the violation of a vested legal
right. - John Marshall, Marbury u. Madison, 1803
Allowing such unlawful acts as perjuries in jury instructions, and distorting trial
process, is itself a brazen abuse of office, and an attack upon the Constitution and
the People of the United States.
Abuse of Office in Verdict Form Questions
The verdict form, consisting of Yes or No questions to be answered by
unanimous vote of the jury, was phrased to ensure that a jury unable to reach
unanimity on any of the complex matters would find for the defendant. The Plaintiff
specifically advised Bowler that all such questions could be phrased oppositely so
that a jury would find for the Plaintiff. Defendant Bowler said “I know all about
that” and went right ahead and phrased all questions to force the decision to favor
the defendants.
The erroneous verdict resulted from Bowler’s perjury in jury instructions, and
distortions of the verdict form, which are penuries and abuses of office, and cannot
be allowed as precedent.

21

These extreme abuses of office and perjuries of law by the corrupt magistrate
Bowler are proven on public record of the proceedings. The denial thereof by Walker
is an extreme and obvious perjury, for which he too must be censured and removed
from office.
Federal Laws Violated by Bowler
Violations of the United States Constitution
Art. Ill § 2
“Judges... shall hold their Offices during Good Behavior”
Amendment V
“No person shall... be deprived of... property without due process of law; nor
shall private property be taken for public use without just compensation.”
Amendment XIV
“No state shall... deprive any person of... property without due process of
law; nor deny to any person within its jurisdiction the equal protection of the
laws.”
Violations of Federal Laws
18 USC § 242 Denial of Constitutional Rights under color of law
18 USC § 371 Fraud and Conspiracy Against the United States
18 USC § 1341 Fraud and Violation of Honest Services
18 USC § 1621 Perjury
18 USC §§ 1952-1968 Racketeer Influenced Corrupt Organizations Act (RICO)
42 USC §§ 1981-1986 Civil Rights Act
Bowler violated these laws in the belief that a magistrate could get away
with anything, just as her version of property takings law asserted that no
compensation at all is necessary, so long as the robber throws a nickel at the victim.
Bowler knew this to be an extreme subversion of the United States Constitution,
deliberately pursued this abuse of public office with intent to cause severe losses to
the Plaintiff, and is a criminal under all of these federal laws.

22

Violations of Due Process and Equal Protection
Violations of Equal Protection of Law
Although Massachusetts law exempts from zoning ordinances the rebuilding
of homes, as fully argued by the Plaintiff before the ZBA and state and federal
courts, the city, the state courts, and the federal courts ignored that mandatory
exemption. The exemption has been applied as intended thousands of times, but
was denied to the plaintiff, a clear denial of equal protection of law, fully known to
the lower courts.
Although both properties adjacent to the subject property have similar
nonconformities with the ex post facto zoning ordinance, and were allowed to
continue in residential use, as argued in memoranda of law before the ZBA and
state and federal courts, the city denied continued use to the plaintiff, a clear denial
of equal protection of law, fully known to all lower courts.
Although the plaintiff demanded that the absurd standard of property taking
invented by Bowler, that over 97 percent of value must be taken to constitute a
taking of any property, be applied equally to the city and its lawyer, so that the
plaintiff must be allowed to take all of their property for 3 percent of its value, the
corrupt magistrate denied this, a clear denial of equal protection of law, fully known
to the lower courts.
These systematic violations of constitutional right to equal protection will be
fully briefed upon certiorari.
Violations of Due Process of Law
The numerous violations of the right of the plaintiff to due process of law
include all of the deliberate distortions of pre-trial and trial process argued herein
and in the lower courts, and will be fully briefed upon certiorari. These violations
sought to attack the plaintiff for prosecuting racketeering by the Republican party.
This is also clearly a crime.

23

Taking of Private Property
Although Massachusetts law correctly exempts from local zoning ordinances
the rebuilding of homes after destruction, the city and state courts denied both the
exemption and compensation, misapplying state law so as to nullify constitutional
rights.
In the original case, the Plaintiff made Motion for Summary Judgment,
which was purely a matter of law, as the defendant had admitted the facts of
property taking under both state and federal standards. There was no dispute as to
the determinative facts, and no cognizable issue of law. The defendant objections
consisted exclusively of cases in which a proposed new land use was denied, a body
of law quite unrelated to denials of established land use, which violate vested rights.
These were completely immaterial cases, and the defendant had no other objection.
This law was fully explained to the district court, which denied summary judgment
with extreme perjuries as to the standard of judgment on every point: Bowler knew
very well that there was no valid argument against the motion, and had been
motivated to commit abuse of public office.
The original state and district decisions contradict rulings of this Supreme
Court in several areas, as well as consistent rulings of lower federal and state
courts. Without intervention by this court, this precedent for unconstitutional
taking of property would jeopardize the largest investment of millions of citizens,
and nullify the Civil Rights Act and Amendments V and XIV, wasting substantial
resources in redundant litigation, necessitating later intervention by this Court.
Conflict With Rulings of this Supreme Court
This Supreme Court established the standard of review in this matter by
summary of its prior judgments on public taking of private property in Palazzolo v.
Rhode Island. 99-2047 (2001)[7]:
“The Takings Clause of the Fifth Amendment, applicable to the States
through the Fourteenth Amendment, Chicago, B. & Q. R. Co. v. Chicago, 166
U. S. 226 (1897), prohibits the government from taking private property for

24

public use without just compensation. The clearest sort of taking occurs when
the government encroaches upon or occupies private land for its own
proposed use. Our cases establish that even a minimal "permanent physical
occupation of real property" inquires compensation under the Clause. Loretto
v. Teleprompter Manhattan CATV Corp., 458 U. S. 419, 427 (1982). In
Pennsylvania Coal Co. v. Mahon, 260 U. S. 393 (1922), the Court recognized
that there will be instances when government actions do not encroach upon
or occupy the property yet still affect and limit its use to such an extent that
a taking occurs. In Justice Holmes' well-known, if less than self-defining,
formulation, "while property may be regulated to a certain extent, if a
regulation goes too far it will be recognized as a taking." Id., at 415.
Since Mahon, we have given some, but not too specific, guidance to courts
confronted with deciding whether a particular government action goes too far
and effects a regulatory taking. First, we have observed, with certain
qualifications, see infra at 19-21, that a regulation which "denies all
economically beneficial or productive use of land" will require compensation
under the Takings Clause. Lucas, 505 U. S., at 1015; see also id., at 1035
(Kennedy, J., concurring); Agins v. City of Tiburon, 447 U. S. 255, 261 (1980).
Where a regulation places limitations on land that fall short of eliminating
all economically beneficial use, a taking nonetheless may have occurred,
depending on a complex of factors including the regulation's economic effect
on the landowner, the extent to which the regulation interferes with
reasonable investment-backed expectations, and the character of the
government action. Penn Central, supra, at 124. These inquiries are informed
by the purpose of the Takings Clause, which is to prevent the government
from "forcing some people alone to bear public burdens which, in all fairness
and justice, should be borne by the public as a whole." Armstrong v. United
States, 364 US 40, 49 (1960)
The Court recognized that the Lucas [4] criterion of "all economically beneficial use"
having been taken is met despite minor value uses that remain after the principal
use is taken (in Lucas as here, uneconomic agricultural use remained when
residential use was taken):
Assuming a taking is otherwise established, a State may not evade the duty
to compensate on the premise that the landowner is left with a token
interest.
Therefore the Lucas [4] criterion is met in this case: because all uses of the property
under the ex post facto zoning ordinance require structures (except non-viable
agricultural use), and no structures can be built there under that ordinance, so that

25

defendant denial of established residential use denied "all economically beneficial
use" despite uneconomic use that may remain. The unlawful decision to prohibit
rebuilding the former home therefore effected a taking of private property.
State Law Is Consistent With Federal Law
In James G. Cavon vs. City of Chicopee & another [3] the Massachusetts
court ruled that:
It is well settled that a taking of private property for which compensation
must be paid is not necessarily restricted to an actual physical taking of the
property. See Nichols, Eminent Domain (Rev. 3d ed.) Section 6.1. This rule
has long been recognized in this Commonwealth. In Old Colony & Fall River
R.R. v. County of Plymouth, 14 Gray 155 , 161 [6], we stated that private
property can be "appropriated" to public use "by taking it from the owner, or
depriving him of the possession or some beneficial enjoyment of it." Likewise,
the Supreme Court of the United States has stated that "[governmental
action short of acquisition of title or occupancy has been held, if its effects are
so complete as to deprive the owner of all or most of his interest in the subject
matter, to amount to a taking." United States v. General Motors Corp. 323
U.S. 373, 378 [10]
Under the law of the United States and of Massachusetts, municipal denial of
nearly all economic value of a property is a public taking of private property and
must be compensated.
The Law Applied to the Case
Prior decisions of this Court establish that the interest of prior owners of the
subject property in its long-established residential use, was not diminished by
subsequent zoning ordinances, was conveyed to the Plaintiff at purchase, was
destroyed by denial of that use by the defendant city, and comprised nearly all of
the value of the property. By prior decisions of this Court, the city denial of
residential use permitted to continue on adjacent properties, denied the Plaintiff
equal protection of law, and denied “substantially all” value and the “reasonable
investment-backed expectation of value” to the Plaintiff, and so constitutes a taking
of private property, and must be compensated.

26

Defendant Bowler rejected these prior decisions of this Supreme Court, put
clearly before her, and chose to invent impossible criteria. These were willful
attempts to subvert Constitutional rights. Certainly Bowler and the First Circuit
judges, subject to property taking by government, would jealously defend the very
rights they denied to the Plaintiff.
False Instructions to Jury on the Takings Clause
In the original case, the issues of federal law were fully briefed by the
Plaintiff in definitive Memoranda of Law, Pretrial Memorandum, and Trial Brief in
the original case, with a clear statement of federal law on each point, all ignored by
Bowler.
Bowler gave the jury carefully-distorted instructions on each federal issue,
using one immaterial state decision, long-superceded standards, and invented
“principles of law,” and demanded IN ALL CAPS that the jury decide the federal
issues accordingly. Bowler chose to ignore the definitive Plaintiff memorandum of
law on each issue, and instead subverted the United States Constitution and the
rights of its People. The false jury instructions are detailed for Question 1 Proof of
Perjury and Abuse of Office by Bowler.
Bowler’s instructions to the jury failed to apply the state standard of property
taking; far more inclusive even than the federal standard, and the applicable
standard of judgment in cases of state takings. The state standard of property
taking is that the owner has been deprived of “some beneficial enjoyment” of it.
Bowler’s instructions to the jury falsely stated the federal standard, claiming
that all property value must be taken to constitute a taking of any private property.
This statement has no basis in law, is plainly false, and was clearly intended to
throw the case to the defendant for bribes or party benefits.
The original district judgment contradicted prior judgments of this Supreme
Court, is repugnant to the Constitution of the United States, and will stand as a
precedent for blatantly unconstitutional seizures of private property, absent

27

correction by this Supreme Court, in reviewing these judgments. Certiorari should
be granted and the judgments reversed with specified compensation. Plaintiff is
prepared to argue these issues with civil rights law [30-38] and zoning cases [4050],
Reasons for Certiorari for Question 2 (res judicata)
2. Are matters of perjury at trial and abuse of trial process res judicata,
when no such claims were even possible in the prior case, and only one of
four defendants is common to the cases?
The law of res judicata does not include claims which were not asserted, and
could not have been asserted, in prior action between the same parties. Therefore
no claim of perjury at trial, or abuse of trial process in a prior action between the
same parties, can be subject to res judicata, because no such claim could have been
asserted between parties of the prior action.
These are not claims in the original action, and the operative facts are clearly
distinct, hence not res judicata. The related facts only show consequent damage by
property taking.
The lower court obstructed this civil action without cognizable argument,
absurdly claiming res judicata despite the clearly distinct claims and only one
defendant shared with the related action. The decision deceitfully equivocates any
common facts between cases with a “common nucleus of operative fact” a very
deliberate perjury, as none of the operative facts are the same, beyond the original
facts of property taking. The first circuit merely cited the immaterial Hatch v. Trail
King Ind., Inc., 699 F.3d 38, 45 (1st Cir. 2012) wherein new claims were pursued
between the same parties for the same incident involved in prior civil action, which
might have been prosecuted in the prior action. Both are quite immaterial here,
where all claims are of perjuries and abuse of office since the prior case operative
facts, denying due process and equal protection in the prior action, against new
defendants.

28

None of the claims of this action could have been claims in the prior action,
because the factual basis of that action ended before the factual basis of this action
began. Only one of the four defendants was a party to the original case: the city
remains a defendant because two if its agents or employees were involved in the
perjuries that denied due process in the prior action, which establishes that no
decision thereof can be valid.
The fake claim of res judicata by the lower court is not mere error, it is
deliberate perjury as to the law, a criminal abuse of public office in subversion of
constitutional rights, and in pursuit of personal gain via political party, which must
be reversed to protect the People of the United States.
It is clear that these decisions sought to attack the plaintiff for prosecuting
racketeering by the Republican party.
Reasons for Certiorari for Question 3 (immunity)
3. Will this Court grant absolute immunity to a magistrate proven on
public record to have committed extreme perjury and abuse of judicial
office? Shall the US accept its constitutional responsibility for her actions?
Will this Court order the Court of Federal Claims to accept tort claim
jurisdiction as provided by the Tucker Act?
The First Circuit was also asked whether, in a case of abuse of office by a
judge causing civil damages, that court would presume or substitute the United
States as defendant, or whether it would try to hide government wrongdoing behind
an immunity for its employees? The First Circuit took the sleaze option, absurdly
claiming that no one is responsible for crime in judicial office causing violation of
civil rights (!).
The lower court also ignored the question of the clear statutory jurisdiction of
the Court of Federal Claims in tort claims against the United States, under the
Tucker Act that created that court, which that court now corruptly denies at its
discretion, on the basis of a carefully-buried false quotation of the Act that simply

29

deletes its tort claims jurisdictions (!). This Court should order the COFC to accept
tort claims against the United States as clearly mandated by the Tucker Act.
Standard of Judgment of Immunity
Judicial immunity is warranted for subtle errors of judgment, compromises
between conflicting principles of law, and uncertainties of evidence. It is not
warranted for extensive, deliberate abuses of office with intent to deny
constitutional rights. Those are crimes.
Inevitably attempts to defend judges accused of criminal acts over-generalize
necessary protections, to simplify matters or to invent impunity for crime, both of
which motives are improper.
Abuses of the immunity doctrine have been approved by judges seeking to
benefit themselves. Every group having social or economic dependencies has rogues
who construct doctrines of infallibility and immunity, and attack those who oppose
abuses. Even professional groups have tribal doctrines to protect their interests,
and rogues who exploit those doctrines for personal gain. Such doctrines have no
foundation in law, and are not legal argument when violations occur.
Absolute Immunity is Unconstitutional
Article III § 2 of the United States Constitution provides that judges shall
serve “during good behavior” which provides that they shall be removed for
behavior that is not good, certainly including protracted and willful violations of
federal law.
Although wrongful judicial acts may be appealed, the tribalist refusal to
admit error prevents redress, and proceedings for removal or discipline rarely
succeed due to tribalism, or do not provide compensation. [1]
The Immunity Travesty is Political Tribalism

30

The problem here is Tribalism, the oldest and worst scourge of humanity. All
groups congratulate themselves as the source of good, and claim that wrongs
originate beyond the tribal boundary. All groups have social and economic
dependencies that cause members to seek gain from group loyalty, and to fear any
appearance of disloyalty, as Aristotle noted. Professional tribe members dare not
impugn one another, at risk of tribal rejection. Political tribalism organizes within
agencies, when a case involves their political party.
The Plaintiff is not a member of a political party, but is now prosecuting the
theft of $120 million in conservation funds by Florida politicians and a state judge
who turned out to be of one party. That case has been blocked by Republican judges
for several years. This is the tribal motive of the lower courts in claiming false
pretexts to deny rights of the Plaintiff, in pursuit of personal gain via political
party, which must be reversed to protect the People of the United States.
Absolute immunity is not a necessary defense. It is extremely unlikely that
judges would wrongly convict judges in cases of subtle interactions of principles of
law, judgment of uncertain facts, or errors of minor consequence, without evidence
of corrupt influence. The rules of judicial conduct review already prohibit that.
Withholding absolute immunity in no way endangers the honest judge. But
absolute immunity ensures wrongdoing, and must be denied if the judicial branch is
to retain self-regulatory capacity.
The Dubious Origins of Immunity Doctrine
The federal judiciary was not empowered to regulate itself, but was not
subjected to the checks and balances upon other branches, due to the fallacious
argument that their small number would chasten them.
The US Supreme Court first defined immunity in Randall u. Brigham [2]
(1868)

31

They are not liable to civil actions for their judicial acts, even when such acts
are in excess of their jurisdiction, unless perhaps where the acts, in excess of
jurisdiction, are done maliciously or corruptly.
But in passing the Civil Rights Act of 1871, both sides of the debate in Congress
clearly understood that it abolished judicial immunity [1 at 739]:
Thus, a careful review of the legislative history of section 1983 and of
contemporary case law indicates that the legislature intended to impose
liability on those judges who violated section 1983. The Pierson u. Ray
decision is typical of many decisions, both federal and state, which have
unjustifiably upheld judicial immunity without adequately analyzing the
doctrine.
The Civil Rights Act of 1871 explicitly provided liability of “all persons” for
violations, yet in early cases, the tribalism of judges granted immunity to state
judges clearly guilty of violations.
a survey of 19th century case law ... shows that in nine states the prevailing
rule was absolute immunity, in four states immunity depended upon the
judge's good faith...[1]
By 1945 the Third Circuit held in Picking [3] that judicial immunity was not a valid
defense to a suit brought under the Civil Rights Act (42 USC 1983)
The privilege as we have stated was a rule of the common law. Congress
possessed the power to wipe it out. We think that the conclusion is
irresistible that Congress by enacting the Civil Rights Act sub judice
intended to abrogate the privilege to the extent indicated by that act and in
fact did so.
But the US judiciary refused to admit that it must also be held to federal law, with
reasonable immunities in subtler cases. The Picking decision was reversed by the
Supreme Court, but that was overturned in Bauers [5].
In Pierson [4] (1967, where black clergymen were convicted of breach-of-thepeace for accessing a "white only" area) the Court denied immunity to officers for
their arrest but granted it to a state judge for their conviction, clearly showing no
better motive than protecting their kind. Judge Warren falsely claimed that
Congress did not intend to abolish common-law immunities, but this was refuted by
judge Douglas: "Mr. Rainey of South Carolina noted that 'The courts are in many

32

instances under the control of those... inimical to the impartial administration of
law...’"
Because courts must have sufficient freedom to apply the law where (1)
principles and laws may conflict, requiring judgment of legislative intent, and (2)
questions of evidence require judgment of probabilities, disputes arise on the proper
bounds of that freedom. Some form of judicial immunity from meritless and
vexatious litigation is warranted, but of course not immunity for deliberate or
extreme abuse of office.
Application of the Standard to the Case
The criteria of reasonable judicial immunity do not apply in this case. In the
original case, magistrate Bowler abused public office to deny the plaintiff the pre­
trial brief and trial brief of the city, denied him the right to vet jurors or display his
exhibits where the jury could see them, denied him cross-examination of witnesses,
instructed the jury to ignore most of his very accurate statements of fact and law,
and willfully committed extensive perjury as to the law throughout her instructions
to the jury, and distorted the verdict form questions to prejudice the outcome. These
are deliberate and systematic perjuries and abuses of office. None of these acts are
mere errors, and none of them involve any subtleties of judgment or fact in which
immunity can be appropriate. These are crimes.
These decisions also sought to attack the plaintiff for prosecuting
racketeering by the Republican party. That is an act of racketeering.
But of course the deceitful district judge Walker leapt to the defense of
corrupt magistrate Bowler, asserting [App. C p. 61-2] that there can be no
corruption injudicial office because (1) he absurdly equivocates all acts of judges
with honorable performance of the duties of office; and (2) he absurdly asserts that
judicial divine perfection is an “axiom of black letter law” in the first circuit. These
are low tribalist scams, admissions by Walker of advanced corruption of public
office.

33

“There is no greater heresy than that the office sanctifies the holder of it.”
Lord Acton.
The belief that necessary immunity includes impunity for crime has resulted in
these abuses of office by defendant Bowler, and is a delusion that must be
extinguished. This case offers the Court the opportunity to restrict the immunity
doctrine to necessary and proper uses, before Congress restricts or abolishes it.
Should this Court review de novo to avoid bias?
In the original case, the First Circuit showed prejudice in ignoring groundless
denials of summary judgment, and claiming that it could not review due to lack of a
trial transcript, despite the documents provided (Instructions to Jury and Verdict
Form). Only one of eight issues of appeal (perjuries at trial) involved other conduct
of trial. The court of appeals affirmed all district court errors on this absurd pretext,
showing extreme prejudice.
In the present perjury case, the First Circuit showed prejudice in ignoring all
fact and argument so as to exonerate the corrupt magistrate, and made an
unsupported and unsupportable affirmation. Therefore this matter would not be
fairly handled on remand, and should be judged de novo by this Court.
Conclusion on Certiorari
Under the law of the United States and of Massachusetts, the right to
continued residential use of the property passed to the Plaintiff upon purchase. The
Massachusetts Zoning Act Ch. 40A specifically exempts rebuilding of the former
home from zoning ordinances. The ex post facto city zoning ordinance prohibited all
economically-viable uses except residential use, which was permitted to continue on
the adjoining properties similarly situated. Therefore the defendant city unlawfully
and unconstitutionally took substantially all value of the subject property by
denying permission to rebuild the former home, as admitted by its sworn 97 percent
reduction of assessed value thereof, and violated the plaintiff right to equal

34

protection of law, in allowing both adjacent properties to remain in residential use
despite similar zoning nonconformities.
The defendant city thereby violated the Civil Rights Act (42 USC §§1983 to
1986), by violation of rights of the Plaintiff guaranteed by the Constitution of the
United States, including his right against the taking of property without just
compensation (Amendment V); his right against deprivation of property without due
process of law (Amendment XIV §1), and his right to equal protection of the laws
(Amendment XIV §1).
In the original case, the extensive perjuries of the defendant city agents
Buckley and Panos, and the perjuries and abuses of office by defendant Bowler,
extended these violations in full knowledge that their acts were unlawful, in
collusion to commit theft and violation of constitutional rights.
The decision of the district and First Circuit is a travesty of excuses to steal
property, a series of prima facie perjuries to defend judicial perjuries, the result of
tribalist loyalty overcoming public duty.
The unsupportable excuse that the fully-evidenced case, ready for summary
judgment, was magically insufficient even to allege claims, is a clear perjury, as
injurious to the people as property taking.
The excuse of res judicata does not apply, as it excludes claims that could not
have been asserted in the prior action, such as perjury and abuse of process. The
lower court made no cognizable argument.
The lower court tried to evade liability by inventing absolute immunity for
judicial crime, and ignoring the residual government liability. But immunity never
extends to crime in public office, and never immunizes government for employee
acts prohibited by its Constitution. Absolute immunity is not needed to defend
honest judicial acts.
The resulting conflict of the lower court decision with the long-established
standards of judgment of claims of property taking, denial of equal protection,

35

perjury and abuse of office, require de novo review by this court, to preserve the
Constitution and laws of the United States from a poisonous precedent.
The decision in this case sought to prevent enforcement of the Civil Rights
acts, under excuses repugnant to the Constitution. Without intervention by this
court, this precedent for abuse of public office causing unconstitutional taking of
private property jeopardizes the investments of millions of Americans, nullifies the
Civil Rights Act and Amendments V and XIV, and would waste resources in
redundant litigation, necessitating later intervention by this Court.
The grave and pervasive conflicts of the judgment under review with the
decisions of this Court and other U.S. courts of appeals call for certiorari: the
judgment should be reversed, and specific compensation ordered to prevent nominal
compensation upon remand.

36

OATH
I hereby certify that all statements in the foregoing document are true and
correct to the best of my knowledge and belief, and that service has been made in
accordance with Rule 29 of the Rules of the Supreme Court, upon all parties hereto,
as shown by the Proof of Service filed herewith.
For Petitioner:
John S. Barth, pro se,
Petitioner and Plaintiff
Dated this
day of

, 2021

List of Counsel
For Bowler:
Annapurna Balakrishna, US Atty
1 Courthouse Way, Suite 9200, Boston, MA 02210
For Buckley. Panos. Peabody:
Matthew Goepfrich; Louison, Costello, etc,
101 Summer St., Boston, MA 02110
For the Plaintiff-Appellant:
John Barth, PO Box 88, Springvale, ME 04083

37

